      Office of Inspector General
      Central Audit Division
      Audit Report




                WATER

  Improvements to Louisiana’s Water Quality
Standards, Monitoring, and Reporting Program
      Would Better Protect State Waters


          Report No. 2000-P-2000185-00022

                September 29, 2000
Inspector General Division:   Central Audit Division
                              Dallas, Texas

Region Covered:               Region 6

Program Office Involved:      Water Quality Protection Division

Audit Contributors:           Angela Bennett, Team Leader
                              Les Partridge, Auditor
                              Gerry Snyder, Engineer
                              Randy Holthaus, Audit Manager
                                          September 29, 2000



MEMORANDUM

SUBJECT:         Improvements to Louisiana’s Water Quality Standards,
                 Monitoring, and Reporting Program Would Better Protect State Waters
                 Report No. 2000-P-000185-00022

FROM:            Randy P. Holthaus
                 Audit Manager
                 Dallas Office

TO:              Gregg Cooke
                 Regional Administrator
                 Region 6

         Attached is our report entitled Improvements to Louisiana’s Water Quality Standards,
Monitoring, and Reporting Program Would Better Protect State Waters. We discussed our
findings with your staff and issued a draft report. We summarized your comments in the final
report and included your complete response in Appendix I.

         We appreciate the cooperation of your staff and the assistance provided throughout the
audit. The staff exhibited a genuine interest in working with us to improve the water quality
program and helped add value to this audit.


ACTION REQUIRED

         In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the
action official, are required to provide this office a written response to the audit report within 90
days of the final audit report date. For corrective actions planned but not completed by the
response date, reference to specific milestone dates will assist in deciding whether to close this
report.

          This audit report contains findings that the Office of Inspector General (OIG) has
identified and corrective actions OIG recommends. This audit report represents the opinion of
OIG, and the findings in this audit report do not necessarily represent the final EPA position.
Final determinations on matters in this audit report will be made by EPA managers in accordance
with established EPA audit resolution procedures.

         We have no objections to the release of this report to the public. If you have any
questions, please call me at (214) 665-6620. Please refer to report number 2000-P-000185-
00022 on any correspondence.

Attachment
                      Improvements to Louisiana’s Water Quality Standards, Monitoring
                            and Reporting Program Would Better Protect State Waters



                   EXECUTIVE SUMMARY

PURPOSE               Maintaining clean and safe water is one of the
                      Environmental Protection Agency’s (EPA) 10 strategic
                      goals. This audit is one in a series of state water quality
                      audits conducted by the Office of Inspector General to
                      develop a national picture of the performance of state water
                      quality programs.

                      The overall objective of the audit was to determine whether
                      Louisiana had developed and effective water quality
                      program that protects State waters. The objectives of the
                      audit were to determine whether: (1) Region 6 maintained
                      effective and adequate oversight of Louisiana’s program;
                      (2) Louisiana developed water quality standards that would
                      protect State waters; (3) Louisiana monitored and assessed
                      the quality of all appropriate waters in the State; and (4)
                      Louisiana developed water quality reports that were
                      complete, accurate, and useful.



RESULTS IN BRIEF      Region 6 generally implemented effective procedures to
                      approve and evaluate Louisiana’s water quality standards.
                      The Region’s oversight of the State’s monitoring program,
                      however, was limited because the Region had not made a
                      formal evaluation of the adequacy of the program relative to
                      the monitoring requirements of §106 of the Clean Water
                      Act and the reporting requirements of §305(b). The
                      Region’s ability to evaluate the program was limited by
                      Louisiana’s untimely and incomplete water quality planning
                      documents.

                      Louisiana’s water quality program was strong in some
                      areas, but needed improvements in others to better protect
                      State waters. Although Louisiana was proactive in the
                      development and adoption of water quality criteria, the
                      standards setting process could be improved by: (1) using
                      more sensitive test methods than currently used to


                                 i                    Report No. 2000-P-000185-00022
                   Improvements to Louisiana’s Water Quality Standards, Monitoring
                         and Reporting Program Would Better Protect State Waters

                   assess water quality needs; (2) adopting EPA recommended
                   bacteria criteria; and (3) clarifying procedures in the
                   State’s antidegradation implementation plan.

                   Louisiana could improve its monitoring and assessment
                   program with the use of biological monitoring, and updated
                   and complete water quality planning documents. The water
                   quality reports issued by Louisiana of its monitoring and
                   assessment activities were submitted as required.


RECOMMENDATIONS    We recommend that the Regional Administrator consult
                   with the Office of Water regarding guidance that would
                   require permittees to use the most sensitive test methods
                   and establish national guidance on antidegradation
                   implementation plans.

                   We also recommend that the Regional Administrator
                   negotiate §106 grant commitments with Louisiana in
                   clarifying its antidegradation implementation plan, adopting
                   EPA’s recommended bacteria criteria, and implementing
                   biological monitoring.



AGENCY AND STATE   Region 6 generally agreed with the findings and
COMMENTS AND       recommendations. The Region provided comments to
OIG EVALUATION     clarify portions of the report, and we have incorporated
                   these comments and modified the report as appropriate. We
                   have summarized the Region’s comments following each
                   chapter and have included the complete response in
                   Appendix I.

                   Louisiana generally did not agree with our findings and
                   recommendations. Louisiana’s comments were considered
                   and the report was modified as appropriate. We have
                   summarized Louisiana’s comments following each chapter.
                   Because of significant modifications made in the report
                   subsequent to receipt of the State’s response, the complete
                   response is not included in the final report. The State’s
                   complete response is available upon request.


                              ii                   Report No. 2000-P-000185-00022
                                                 Improvements to Louisiana’s Water Quality Standards, Monitoring
                                                       and Reporting Program Would Better Protect State Waters



                                            TABLE OF CONTENTS
                                                                                                                               Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1        INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

                   BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

                   SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

2        REGION 6 OVERSIGHT OF LOUISIANA’S
           MONITORING PROGRAM WAS LIMITED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                   EFFECTIVE OVERSIGHT OF WATER QUALITY
                     STANDARDS PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                   LIMITED OVERSIGHT OF MONITORING PROGRAM . . . . . . . . . . . . . . . . 8

                   CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                   AGENCY AND STATE COMMENTS AND OIG EVALUATION . . . . . . . . . 10

3        IMPROVEMENTS TO WATER QUALITY STANDARDS WOULD ENSURE
         FURTHER PROTECTION OF STATE WATER QUALITY . . . . . . . . . . . . . . . . . . . 11

                   ADOPTING CRITERIA IN THE ABSENCE OF EPA CRITERIA . . . . . . . . . 11




                                                                iii                         Report No. 2000-P-000185-00022
                                         Improvements to Louisiana’s Water Quality Standards, Monitoring
                                               and Reporting Program Would Better Protect State Waters

            USING MORE SENSITIVE TEST METHODS IS NEEDED
              TO BETTER ASSESS WATER QUALITY NEEDS . . . . . . . . . . . . . . . . . . 12

            ADOPTING E. COLI AND/OR ENTEROCOCCI CRITERIA
             WOULD MEET EPA REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . 14

            CLARIFYING PROCEDURES WOULD STRENGTHEN
              ANTIDEGRADATION IMPLEMENTATION PLAN . . . . . . . . . . . . . . . . . 15

            CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

            RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

            AGENCY AND STATE COMMENTS AND OIG EVALUATION . . . . . . . . . 17

4   WATER QUALITY MONITORING AND ASSESSMENT
     PROGRAM COULD BE IMPROVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

            BIOLOGICAL MONITORING WOULD ENHANCE PROGRAM . . . . . . . . . 19

            WATER QUALITY PLANNING DOCUMENTS NOT
             UPDATED OR COMPLETE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

            WATER QUALITY REPORTS SUBMITTED AS REQUIRED . . . . . . . . . . . 22

            CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

            RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

            AGENCY AND STATE COMMENTS AND OIG EVALUATION . . . . . . . . . 23


EXHIBITS

1   SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

2   PREVIOUS OIG WATER QUALITY REPORTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

3   POLLUTANTS REQUIRING THE USE OF MORE
    SENSITIVE TEST METHODS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28


                                                       iv                         Report No. 2000-P-000185-00022
                                             Improvements to Louisiana’s Water Quality Standards, Monitoring
                                                   and Reporting Program Would Better Protect State Waters

APPENDICES

I     AGENCY RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

II    ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

III   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34




                                                            v                          Report No. 2000-P-000185-00022
             Improvements to Louisiana’s Water Quality Standards, Monitoring
                   and Reporting Program Would Better Protect State Waters


              CHAPTER 1
             INTRODUCTION

PURPOSE      Water is one of our vital resources and must be protected.
             Clean and safe water is one of the Environmental Protection
             Agency’s (EPA) 10 strategic goals. This goal includes
             ensuring our surface waters, such as lakes, rivers, wetlands,
             and oceans sustain human health; support and maintain
             aquatic life; and provide for both recreational and economic
             activities. EPA and the states have developed water quality
             programs to protect surface waters by designating use
             classifications, setting criteria to protect
             the use, and then monitoring and reporting on how well
             the water quality supports the use. EPA and states use
             their water quality information as a basis for, and to
             measure performance of, their programs to control and
             clean up water pollution. This audit is one in a series of
             state water quality audits conducted by the Office of
             Inspector General (OIG) to develop a national picture of
             the performance of state water quality programs.




OBJECTIVES   The overall objective of the audit was to determine whether
             the Louisiana water quality program effectively protects
             public health and the environment by supporting safe
             drinking water sources, fish consumption, safe recreation,
             and healthy aquatic life use designations. Our specific
             objectives were to determine whether:

             P       Region 6 implemented effective procedures to
                     approve Louisiana’s water quality standards and
                     evaluate the State’s water quality standards setting,
                     monitoring, and reporting program;

             P       Louisiana developed water quality standards that
                     will protect the State’s water quality;



                        1                    Report No. 2000-P-000185-00022
                        Improvements to Louisiana’s Water Quality Standards, Monitoring
                              and Reporting Program Would Better Protect State Waters

                        P       Louisiana monitored and assessed the quality of all
                                appropriate waters in the State; and

                        P       Louisiana developed reports on water quality that
                                were complete, accurate, and useful for program
                                management.




BACKGROUND              The Clean Water Act (the Act) is the primary legislation
                        addressing water quality programs. The objective of the
                        Act is to restore and maintain the quality of the nation’s
                        surface waters. The Act gave EPA the responsibility for
                        developing water quality criteria for priority pollutants to
                        protect human health and aquatic life. Federal regulations
                        place responsibility on states to adopt water quality criteria
                        which are an important basis for states to protect designated
                        uses of a waterbody. Water quality standards consist of
                        three elements: designated use classifications, criteria
                        necessary to protect the designated uses, and an
                        antidegradation policy.

Use Requirements        States classify waters according to how they can be used,
                        such as for drinking, fishing, and swimming. Multiple use
                        classifications can be assigned to individual waters. The
                        goal of the Act is that all waters of the United States, where
                        attainable, be fishable and swimmable. The fishable use
                        provides for the protection and propagation of fish,
                        shellfish, and wildlife. The swimmable use provides for
                        recreation in and on the water. In accordance with the
                        goals of the Act, states are required to adopt the fishable
                        and swimmable use classifications for all waters, unless the
                        water cannot meet these uses. If the waters cannot meet
                        these uses, states are required to conduct special studies
                        showing the uses are not attainable, in accordance with 40
                        Code of Federal Regulations (CFR) 131.10, Designation of
                        uses.

Criteria Requirements   Once use classifications are assigned, states are required to
                        adopt criteria in their water quality standards to protect the
                        designated uses. Numerical criteria identify the amount of a

                                   2                    Report No. 2000-P-000185-00022
Improvements to Louisiana’s Water Quality Standards, Monitoring
      and Reporting Program Would Better Protect State Waters

specific pollutant that may be present in the water and still
protect the designated use. Narrative criteria may also be
used to protect uses if numerical criteria is not available or a
specific pollutant cannot be identified as the cause of use
impairment.

EPA develops and publishes criteria that set limits for
pollutants based on the effect the pollutants have on the
water use classifications. The Act requires EPA to develop
criteria for 126 priority toxic pollutants (that are the most
persistent, prevalent, and toxic of pollutants). States may
use EPA criteria or develop their own scientifically
defensible criteria.

§303(c)(2)(B) of the Act affords states the following three
scientifically and technically sound options (or some
combination thereof) for establishing criteria:

P       adopt statewide numeric criteria for all §307(a) toxic
        pollutants for which EPA has developed criteria
        guidance, regardless of whether the pollutants are
        known to be present;

P       adopt specific numeric criteria for §307(a) toxic
        pollutants as necessary to support designated uses
        where such pollutants are discharged or are present
        in the affected waters and could reasonably be
        expected to interfere with designated uses; or

P       adopt a “translator procedure” to be applied to a
        narrative water quality standard provision that
        prohibits toxicity in receiving waters.

In establishing and revising water quality standards, states
must review all available data to determine whether the
discharge or the presence of a toxic pollutant is impairing,
or is likely to impair, the attainment of the designated uses
of any waterbody. If data indicate that it is reasonable to
expect the toxic pollutant to impair the use, or it actually is
impairing the use, then the state must adopt a numeric limit
for the specific pollutant.

           3                    Report No. 2000-P-000185-00022
Improvements to Louisiana’s Water Quality Standards, Monitoring
      and Reporting Program Would Better Protect State Waters

 In identifying the need for numeric criteria, states are
encouraged to use a variety of information and data such as:

P       ambient water monitoring data, including those for
        sediment and aquatic life (e.g., fish tissue data),

P        National Pollutant Discharge Elimination System
        (NPDES) permit applications and permittee self-
        monitoring reports,

P       effluent guideline development documents, many of
        which contain §307(a)(1) priority pollutant scans,

P       public water supply source monitoring data noting
        pollutants with Maximum Contaminant Levels,

P       information in annual reports from the Toxic
        Chemical Release Inventor, and

P       any other relevant information on toxic pollutants
        collected by federal, state, interstate agencies,
        academic groups, or scientific organizations.

Where any information and data review indicates a
reasonable expectation of a problem from the discharge or
presence of toxic pollutants, the state should identify the
pollutant(s) and the relevant waterbody segment(s). In
making these determinations, states should use their own
EPA approved criteria or existing EPA water quality
criteria. Upon completion of review, states may use other
means to establish final criteria for inclusion in their
standards.

States are required, at a minimum, to review their water
quality standards once every 3 years and obtain EPA
approval for the standards. If EPA disapproves a state’s
water quality standards, the Act requires EPA to
promulgate new standards for the state. EPA may also
propose and promulgate a new and revised standard
applicable to one or more states if such a standard is
necessary to meet the requirements of the Act. This was the

           4                    Report No. 2000-P-000185-00022
                     Improvements to Louisiana’s Water Quality Standards, Monitoring
                           and Reporting Program Would Better Protect State Waters

                     case in 1992, when EPA promulgated toxics criteria, under
                     the National Toxics Rule, for those states not complying
                     with the Act.

Antidegradation      40 CFR 131.12, Antidegradation policy, requires states to
Requirements         have an antidegradation policy to conserve, maintain, and
                     protect existing uses of waterbodies and maintain water
                     quality. The antidegradation policy also should require that
                     the state protect waters of exceptionally high quality or
                     value. The CFR also requires the state to identify the
                     methods of implementation. Chapter 4, Section 4.3 of
                     EPA’s Water Quality Standards Handbook-Second Edition,
                     provides that antidegradation procedures specify how the
                     state will determine on a case-by-case basis whether, and to
                     what extent, water quality may be lowered.

Ambient Monitoring   40 CFR 130.4, Water Quality Monitoring, requires that
Requirements         states establish appropriate testing techniques to monitor
                     water quality. This monitoring information is to be used to
                     support activities to abate and control pollution, develop
                     water quality standards, and report water quality
                     information to the public. The regulation further requires
                     that water monitoring programs include the collection and
                     analysis of physical, chemical, and biological data, and
                     quality assurance and control programs to assure
                     scientifically valid data.

                     EPA’s Section 106 and 604(b) Grant Guidance, dated
                     October 17, 1994, recommended that states provide a
                     multi-year monitoring strategy with their grant applications.
                     The monitoring strategy should address how the state will
                     assess all waters on a periodic basis using a monitoring
                     design targeted to the conditions of, and goals for, the
                     waters. The multi-year strategy was to provide the
                     framework for the regional/state annual work plan
                     negotiations. The guidance recommended that the state
                     address specific elements, including water quality problems,
                     information gaps, time lines, testing approaches,
                     coordination with other agencies, and quality assurance.



                                5                    Report No. 2000-P-000185-00022
                          Improvements to Louisiana’s Water Quality Standards, Monitoring
                                and Reporting Program Would Better Protect State Waters

                          States are required to conduct planning based on water
                          quality problems identified in their water quality
                          assessment reports. The requirements of 40 CFR 130.5,
                          Continuing planning process, provide that states establish a
                          process for managing their water quality program.
                          Additionally, the requirements of 40 CFR 130.6, Water
                          quality management plans, provides that states prepare
                          water quality management plans that identify and
                          recommend procedures to control priority point and non-
                          point water quality problems. The state’s annual work
                          programs should be based on the water quality management
                          plans and water quality problems identified in the water
                          quality assessment reports.

Reporting Requirements    §305(b) of the Act requires each state to assess and report
                          to EPA every 2 years on the condition of its waters.
                          Reporting requirements are further described in EPA’s
                          Guidelines for Preparation of the Comprehensive State
                          Water Quality Assessments [305(b) Reports] and
                          Electronic Updates, dated September 1997. The §305(b)
                          report is used as a report to Congress to meet the Act
                          requirements; to help states focus resources on priority
                          areas; and to provide useful and accessible data to decision
                          makers.

                          §303(d) of the Act requires each state to prepare a
                          prioritized list of impaired water bodies that do not fully
                          support their designated use. From this list, the state is
                          required to develop total maximum daily loads, which are
                          allocations of how much of a pollutant dischargers can
                          release into each water body and still meet the state’s
                          water quality standards.


Louisiana Water Quality   The Louisiana Department of Environmental Quality (the
Program                   Department) is responsible for protecting and maintaining
                          Louisiana’s water quality. All changes to water quality
                          standards are developed within the Department and
                          certified by the Department’s General Counsel. The
                          Department the State Department of Health and Hospitals
                          share the responsibility for the protection of primary contact

                                     6                    Report No. 2000-P-000185-00022
              Improvements to Louisiana’s Water Quality Standards, Monitoring
                    and Reporting Program Would Better Protect State Waters

              recreation or “high use bathing waters.” In fiscal 1999,
              approximately $1.4 million of §106 grant funds were
              awarded to the Department to support the water quality
              activities discussed in this report and other various water
              quality related activities within the State.




SCOPE AND     We performed our audit in accordance with the Government
METHODOLOGY   Auditing Standards (1994 revision) issued
              by the Comptroller General of the United States as they
              apply to program audits. Our review included tests of
              the program records and other auditing procedures we
              considered necessary. Our fieldwork was conducted from
              April 1999 through June 2000, at Region 6 in Dallas, Texas,
              and the Louisiana Department of Environmental Quality in
              Baton Rouge, Louisiana. See Exhibit 1 for our scope and
              detailed methodology.




PRIOR AUDIT   Neither OIG nor the U.S. General Accounting Office has
COVERAGE      issued any recent reports directly related to Louisiana’s
              water quality standards, monitoring, and reporting program.
              Since 1998, OIG has completed similar audits of water
              quality programs in eight states. See Exhibit 2 for a listing
              of previous OIG water quality reports. Common issues
              identified in the other reports include: water quality
              standards; antidegradation polices and implementation
              plans; fecal coliform and E. Coli in recreational waters;
              triennial reviews and EPA approval of standards;
              submission of required water quality planning
              documents; and water quality monitoring and reporting.




                         7                    Report No. 2000-P-000185-00022
                      Improvements to Louisiana’s Water Quality Standards, Monitoring
                            and Reporting Program Would Better Protect State Waters



                        CHAPTER 2
            REGION 6 OVERSIGHT OF LOUISIANA’S
            MONITORING PROGRAM WAS LIMITED
                      Region 6 generally implemented effective procedures to
                      approve and evaluate Louisiana’s water quality standards.
                      The Region’s oversight of the State’s monitoring program,
                      however, was limited because the Region had not made a
                      formal evaluation of the adequacy of the program relative to
                      the monitoring requirements of §106 and the reporting
                      requirements of §305(b). The Region’s ability to evaluate
                      the program was limited by Louisiana’s untimely and
                      incomplete water quality planning documents. Without a
                      formal evaluation of the program, the Region cannot be
                      assured that the requirements of the Act are being met or
                      whether the State has focused its water quality efforts on
                      priority areas.




EFFECTIVE OVERSIGHT   Region 6 generally implemented effective procedures to
OF                    approve Louisiana water quality standards and placed a high
WATER QUALITY         priority on the oversight of water quality standards
STANDARDS             development. As part of its oversight, Region 6 routinely
                      communicated with Louisiana personnel to discuss
                      problems and answer questions that came up during the
                      development of water quality criteria. This open
                      communication assisted in identifying problems at an early
                      stage and made the approval process quick with few
                      complications. Cooperation between Region 6 and
                      Louisiana throughout the water quality standards setting
                      process contributed to an effective water quality standards
                      setting process.




LIMITED OVERSIGHT     Region 6's oversight of the State’s monitoring efforts were
OF MONITORING         limited because the Region had not made a formal
PROGRAM               evaluation of the adequacy of the program relative to

                                 8                    Report No. 2000-P-000185-00022
                  Improvements to Louisiana’s Water Quality Standards, Monitoring
                        and Reporting Program Would Better Protect State Waters

                  the monitoring requirements of §106 and the reporting
                  requirements of §305(b). The Region’s ability to evaluate
                  the program was limited by Louisiana’s untimely and
                  incomplete water quality planning documents. As discussed
                  in Chapter 4 , Louisiana had not communicated significant
                  changes to its monitoring program through updated
                  planning documents as provided in the planning
                  requirements of 40 CFR 130.5. As a result, Region 6's
                  involvement in the State’s monitoring program was limited.

                  The monitoring strategy is intended to serve as a planning
                  mechanism to ensure the adequacy of states’ monitoring
                  programs and eligibility for continued grant funding under
                  §106 of the Act. Without updated information, Region 6
                  could not evaluate Louisiana’s monitoring program and
                  determine if the requirements of the Act were being met.




CONCLUSION        Region 6's active involvement in Louisiana’s standards
                  setting process contributed overall to an effective process.
                  Timely and complete water quality planning documents
                  should provide Region 6 with the opportunity to fulfill its
                  oversight responsibilities.




RECOMMENDATIONS   We recommend the Regional Administrator:

                  2-1.    Negotiate firm §106 grant commitments with
                          Louisiana to ensure timely submittal of required
                          water quality planning documents, including the
                          Continuing Planning Process, Quality Assurance
                          Project Plan, and a State monitoring strategy.

                  2-2.    Consider imposing a §106 grant condition for
                          withholding grant funds if the required documents
                          are not submitted as negotiated.




                             9                    Report No. 2000-P-000185-00022
                   Improvements to Louisiana’s Water Quality Standards, Monitoring
                         and Reporting Program Would Better Protect State Waters

AGENCY AND STATE   Region 6 provided no specific comments to the findings and
COMMENTS AND OIG   recommendations in this chapter. Louisiana provided
EVALUATION         comments indicating that they had worked very closely with
                   Region 6 in addressing TMDL program needs, including
                   monitoring and assessment. Further, Louisiana responded
                   that EPA was very much aware and supportive of its revised
                   water quality monitoring strategy. It is Louisiana’s
                   understanding that the monitoring strategy was described in
                   other documents such as the §305(b) Report and the §106
                   grant workplan, and will be further described in a revised
                   Continuing Planning Process document.

                   Louisiana’s comments are acknowledged, and we agree
                   that the monitoring strategy is generally discussed in the
                   §305(b) Report and the §106 grant workplan. However,
                   we do not believe these discussions satisfy the intent of
                   a “multi-year monitoring strategy” as recommended in
                   EPA’s Section 106 and 604(b) Grant Guidance discussed in
                   Chapter 1.




                              10                   Report No. 2000-P-000185-00022
                    Improvements to Louisiana’s Water Quality Standards, Monitoring
                          and Reporting Program Would Better Protect State Waters


                        CHAPTER 3
  IMPROVEMENTS TO WATER QUALITY STANDARDS WOULD
  ENSURE FURTHER PROTECTION OF STATE WATER QUALITY

                    Louisiana has developed water quality standards that are
                    generally protective of the State’s water quality. Louisiana
                    was proactive in the development and adoption of water
                    quality criteria for pollutants, in the absence of EPA criteria,
                    to make certain its citizens were protected against
                    dangerous pollutants found in State waters. The standards
                    setting process, however, could be improved by:

                    P       using more sensitive analytical test methods than
                            currently used to assess water quality needs,

                    P       adopting EPA recommended E. coli and/or
                            enterococci bacteria criteria, and

                    P       clarifying procedures in the State’s antidegradation
                            implementation plan.




ADOPTING CRITERIA   Louisiana proactively developed and adopted water quality
IN THE ABSENCE OF   criteria for several priority and non-priority pollutants in
EPA CRITERIA        the absence of EPA criteria. Using a variety of sources,
                    such as fish tissue studies and documented fish kills,
                    Louisiana realized that these pollutants had the potential to
                    interfere with attainment of designated uses and responded
                    by developing and adopting new criteria. Louisiana’s
                    adoption of these criteria help to protect both human health
                    and aquatic life use designations.

                    Examples of pollutants which Louisiana developed and
                    adopted criteria for include: Lindane (gamma BHC,
                    hexachlorocyclohexane), Silvex (2,4,5-trichlorophenoxy)
                    and 2,4-D (2,4-dichlorophenoxyacetic acid), and eight
                    other compounds.



                               11                   Report No. 2000-P-000185-00022
                    Improvements to Louisiana’s Water Quality Standards, Monitoring
                          and Reporting Program Would Better Protect State Waters

Lindane             Louisiana adopted more stringent human health criteria
                    for Lindane because it was detected in fish tissue and
                    believed to have the potential for detrimental impacts on
                    both human health and aquatic life. Lindane, a priority
                    pollutant, accumulates in fish tissue and is considered
                    “persistent” in the aquatic environment.

Silvex and 2,4-D    The adoption of Silvex and 2,4-D, both non-priority
                    pollutants, were prompted by detections in drinking water
                    and the concerns for the potential to impact aquatic life and
                    human health. Fish kills were also associated with the use
                    of these herbicides.

Other Compounds     Louisiana developed criteria for eight compounds detected
                    in the Mississippi River, including: Bromodichloromethane
                    and Dibromochloromethane, 1,3-Dichloropropene, and five
                    Chlorinated Phenols. Louisiana determined that these
                    compounds, resulting from spills and/or unpermitted
                    discharges, were potentially harmful to human health.




USING MORE          Louisiana used analytical test methods that may not be
SENSITIVE TEST      sensitive enough to adequately assess the State’s water
METHODS IS NEEDED   quality needs and protect human health. Test methods
TO BETTER ASSESS    should measure toxic pollutants at levels required to
WATER QUALITY       determine the need for state water quality criteria, and
NEEDS               detect pollutants in wastewater discharges at or below
                    the lowest EPA or state water quality criteria. Generally,
                    test methods used in Louisiana were sensitive enough to
                    confidently measure toxic pollutants at these levels.
                    However, the test methods used were not always sensitive
                    enough to determine if certain pollutants identified in their
                    permits were present at low levels in discharges. As a
                    result, the need for state water quality criteria may go
                    unheeded, and the impairment of water quality due to toxic
                    pollutants may go undetected.

                    EPA and Louisiana used guidance researched and
                    developed by EPA Region 6 for establishing its test
                    methods and minimum quantification levels. The

                               12                   Report No. 2000-P-000185-00022
Improvements to Louisiana’s Water Quality Standards, Monitoring
      and Reporting Program Would Better Protect State Waters

guidance established minimum levels of sensitivity
from which the Region could establish a legal base for
enforcement and a threshold for reporting. The guidance
further acknowledged that the these minimum levels may
not be the most sensitive analysis for some pollutants.

We reviewed the limitations for parameters for which EPA
had established water quality criteria (Quality Criteria for
Water 1986, as Amended) in 10 permits. The purpose of
the review was to determine if 40 CFR 136 analytical
methods were required which were sensitive enough to
measure down to the lowest published EPA water quality
criteria level. Our review identified nine toxic pollutants (all
suspected carcinogens) where test methods were used that
were not sensitive enough to measure this concentration
level. The nine pollutants are listed in Exhibit 3. Permittee
self-monitoring (discharge monitoring report) data provided
to Louisiana only indicated that the pollutants were not
discharged at levels greater than the enforceable
quantification level. As a result, information was not
available to ascertain whether the State should have
established appropriate state water quality standards
and permit limitations for these parameters; rather,
only technology based limits were established.

Using EPA’s permit writers guidance and EPA’s published
water quality criteria document, in the absence of state
standards for these parameters, we calculated water quality
based requirements for the pollutants hexachloroethane
and benzo(b)floranthene in four permits. The requirements
calculated were more stringent than the technology
limitations established in the permit. In these instances,
more sensitive analytical methods should have been required
to determine if there was potential for the pollutants to be
discharged at a level which would result
in a water quality problem. If the potential for a toxic
problem was found, appropriate water quality standards
and permit limitations should have been established.

Without requiring measurements in NPDES discharges and
ambient waters down to the most stringent published EPA

           13                   Report No. 2000-P-000185-00022
                      Improvements to Louisiana’s Water Quality Standards, Monitoring
                            and Reporting Program Would Better Protect State Waters

                      water quality criteria level, the State may not be able to
                      determine whether: the pollutants are present, water quality
                      based criteria are needed, or if designated uses are being
                      impaired.




ADOPTING E. COLI      Louisiana had not taken actions to adopt EPA recommended
AND/OR ENTEROCOCCI    E. coli and/or enterococci bacteria criteria. Although
CRITERIA WOULD MEET   Region 6 had worked diligently with the State to adopt the
EPA REQUIREMENTS      criteria recommended in the Ambient Water Quality Criteria
                      for Bacteria - 1986, Louisiana had retained the use of fecal
                      coliform as its indicator organism for waterbodies with
                      primary contact recreation or “high use bathing waters” use
                      designations. To date, the two agencies responsible for
                      protecting high use bathing waters have been unable to
                      reach an agreement on an appropriate indicator organism.

                      On March 7, 1986, EPA published Ambient Water Quality
                      Criteria for Bacteria - 1986, which recommended E.coli
                      and/or enterococci as the indicator organisms, and addressed
                      fecal coliform as an inadequate indicator to provide
                      protection from swimming in bacteriologically contaminated
                      waters. In February 1998, EPA issued its Clean Water
                      Action Plan stating that the Agency would develop a
                      specific plan and schedule for the development of a new
                      generation of microbiological criteria. In March 1999, the
                      Office of Research and Development and the Office of
                      Water issued the Action Plan for Beaches and Recreational
                      Waters, advising states that EPA would promulgate the
                      Ambient Water Quality Criteria for Bacteria - 1986 bacteria
                      criteria by 2003 unless actions were taken by the states to
                      adopt the EPA recommended criteria, or scientifically
                      defensible alternatives.

                      Elevated bacteria levels can be hazardous to people
                      using water for recreational activities. EPA’s current
                      recommended water quality criteria for bacteria are for the
                      protection from gastrointestinal illness; however, pathogens
                      can also cause illnesses ranging from sore throats to
                      meningitis and encephalitis. Given the potential for these

                                 14                   Report No. 2000-P-000185-00022
                   Improvements to Louisiana’s Water Quality Standards, Monitoring
                         and Reporting Program Would Better Protect State Waters

                   illnesses, it would be in the best interest of the public if
                   Louisiana initiated actions to adopt the appropriate criteria
                   prior to EPA’s proposed promulgation in 2003.




CLARIFYING         Although Louisiana has established an antidegradation
PROCEDURES WOULD   policy that meets the requirements of 40 CFR 131.12, the
STRENGTHEN         State could strengthen its antidegradation implementation
ANTIDEGRADATION    plan with further clarification of its procedures. The
IMPLEMENTATION     implementation plan does not contain specific details on
PLAN               the process the State will use to approve actions that may
                   impact water quality. Without specific implementation
                   procedures, Louisiana cannot determine how, on a case-by-
                   case basis whether, and to what extent, water quality may be
                   lowered.

                   Although states must follow the antidegradation policy
                   requirements of 40 CFR 131.12, EPA has not provided
                   national guidance to assist states in the development of
                   their implementation plans. In the absence of national
                   guidance, Region 6 proposed the use of Region 8
                   guidance to assist Louisiana in the development of their
                   implementation plan.

                   Louisiana’s implementation plan contains basic information
                   on how the State will implement its antidegradation policy;
                   however, the plan does not contain specific details on the
                   processes the State will use to approve actions that may
                   impact water quality. To ensure consistency of policy
                   implementation and the protection of high quality waters,
                   Louisiana should consider providing further clarification of
                   its plan, including the:

                   P       identification of specific activities being reviewed;
                   P       identification of the sequence of steps in the
                           review process;
                   P       differentiation between procedures used for
                           Outstanding Natural Resource Waters, high
                           quality waters, and all others; and
                   P       utilization of more detail on documentation, public

                              15                   Report No. 2000-P-000185-00022
                  Improvements to Louisiana’s Water Quality Standards, Monitoring
                        and Reporting Program Would Better Protect State Waters

                          review, and intergovernmental coordination efforts.




CONCLUSION        Louisiana has developed water quality standards that
                  should protect public health and the environment by
                  supporting safe drinking water sources, fish consumption,
                  safe recreation, and healthy aquatic life use designations.

                  The use of more sensitive test methods, the adoption
                  of EPA’s water quality criteria for bacteria, and the
                  clarification of the antidegradation implementation plan
                  will help Louisiana ensure further protection of the State’s
                  water quality.




RECOMMENDATIONS   We recommend the Regional Administrator:

                  3-1.    Consult with the Office of Water regarding the
                          development of new, or clarification to, existing
                          policies and/or regulations that would require
                          permittees to use the most sensitive 40 CFR 136
                          test methods to determine the existence, in point
                          source discharges and ambient waters, of toxic
                          pollutants for which the State or EPA has published
                          final criteria.

                  3-2.    Continue efforts to encourage Louisiana to initiate
                          actions to adopt E.coli and/or enterococci criteria
                          prior to EPA’s proposed promulgation in 2003.


                  3-3.    Consult with the Office of Water regarding
                          the development of national guidance on
                          antidegradation implementation plans.

                  3-4.    Assist Louisiana in providing further clarification
                          of its antidegradation implementation plan.



                             16                   Report No. 2000-P-000185-00022
                          Improvements to Louisiana’s Water Quality Standards, Monitoring
                                and Reporting Program Would Better Protect State Waters

AGENCY AND STATE          Region 6 and Louisiana provided comments to clarify
COMMENTS AND OIG          portions of the chapter. We have incorporated the
EVALUATION                comments and modified the chapter as appropriate.

Using More Sensitive      Region 6 generally agreed that the use of more sensitive test
Analytical Test Methods   methods could be more protective of state and EPA water
                          quality standards. However, Region 6 also agrees with
                          Louisiana that implementation of more sensitive test
                          methods would result in substantially increased costs to
                          permittees. Louisiana questioned whether higher costs of
                          more sensitive methods would provide additional
                          environmental benefit. Louisiana also raised other valid
                          concerns about the technical feasibility of using the more
                          sensitive tests. Both Region 6 and Louisiana have
                          expressed a willingness to use more sensitive test methods
                          where water quality problems have already been identified.

                          Based on the concerns raised by both Region 6 and
                          Louisiana, the Region should consult with EPA’s Office
                          of Water over the need for additional Agency policy that
                          addresses this issue. It is our opinion that Agency policy
                          is needed to address various implementation issues including
                          the selection of the most appropriate test method, cost
                          benefit analyses supporting use of more sensitive test
                          methods, resolution of various technical issues raised by the
                          states, and the need for new or alternative test methods.

Adopting E. coli and/or   Region 6 generally agreed with our recommendation and
Enterococci               noted that they are working diligently with Louisiana on the
                          matter. Region 6 noted further that there is one triennial
                          review remaining in which Louisiana may adopt the EPA
                          recommended criteria, or scientifically defensible
                          alternatives, before EPA will promulgate criteria in 2003.

                          Louisiana’s response highlighted the complexity in changing
                          indicator organisms, the problems in coordinating their
                          efforts with the Department of Health and Hospitals
                          regulations, and their need to progress in a determined
                          manner to ensure they make the correct decision. Louisiana
                          indicated that they would continue current studies seeking a
                          solution.

                                     17                   Report No. 2000-P-000185-00022
                             Improvements to Louisiana’s Water Quality Standards, Monitoring
                                   and Reporting Program Would Better Protect State Waters

                             OIG commends Region 6 and Louisiana for their current
                             effort in addressing the matter. It is our opinion that it
                             would be in the best interest of Louisiana to continue
                             actions toward establishing an approved indicator organism
                             that more appropriately addresses State needs.

Clarifying Antidegradation   Region 6 provided no specific comments to this issue.
Implementation Procedures    Louisiana generally disagreed with the issue and provided
                             that the established antidegradation policy meets the
                             requirements of 40 CFR 131.12. The antidegradation
                             policy, along with the implementation plan, had been
                             approved by Region 6. Louisiana further provided that
                             procedures that serve to implement the antidegradation
                             policy are integrated into all water quality related activities
                             within the Department and, as such, serve to accomplish
                             the intent of an antidegradation review. The response
                             included a discussion of each of the items identified for
                             clarification. Louisiana expressed an overall concern that a
                             recommendation is being made to document a process for
                             which there is no Region 6 or national guidance.

                             Louisiana’s comments are acknowledged and we agree, as
                             stated in the report, that the antidegradation policy meets
                             the requirements of 40 CFR 131.12. The report has been
                             modified to reflect four items that we believe need
                             clarification in order to ensure consistency of policy
                             implementation and the protection of high quality waters.

                             Regarding the absence of national guidance, it is our
                             understanding that Region 6 has previously proposed the
                             use of Region 8 guidance to assist states in the development
                             of implementation plans. We support Region 6's use of the
                             Region 8 guidance, pending the issuance of national
                             guidance. An additional recommendation, directed at the
                             Office of Water and the development of national
                             implementation plan guidance, has been included in the
                             report.




                                        18                   Report No. 2000-P-000185-00022
                    Improvements to Louisiana’s Water Quality Standards, Monitoring
                          and Reporting Program Would Better Protect State Waters


                      CHAPTER 4
       WATER QUALITY MONITORING AND ASSESSMENT
             PROGRAM COULD BE IMPROVED

                    Louisiana generally implemented procedures to effectively
                    monitor and assess the quality of State waters. The water
                    quality reports issued by Louisiana of its monitoring and
                    assessment activities were submitted to Region 6 as
                    required. The program, however, could be improved with
                    the use of biological monitoring, and updated and complete
                    water quality planning documents. Without the use of
                    biological monitoring, Louisiana cannot ensure that its
                    water quality standards are protective of all designated uses.
                    Without timely and complete planning documents, the State
                    may not be focusing its water quality efforts on priority
                    areas.




BIOLOGICAL          The overall usefulness and accuracy of the Louisiana
MONITORING WOULD    monitoring and assessment program would be enhanced
ENHANCE PROGRAM     with the collection and analysis of biological data.
                    Louisiana’s water quality assessments were conducted
                    primarily using chemical-specific data obtained from the
                    State’s ambient monitoring network. Although Region 6
                    has encouraged Louisiana to implement a biological
                    monitoring program, the State does not believe that
                    widespread ambient biological monitoring is an effective or
                    defensible way to assess designated uses. Louisiana has
                    expressed to Region 6 that it does not intend to initiate a
                    costly and intensive biological monitoring program that
                    does not help accurately assess waterbodies. Louisiana,
                    however, will continue to use biological monitoring in
                    conjunction with use attainability analyses, fish consumption
                    investigations, ecoregion program surveys, fish kill
                    investigations, and other special studies and surveys.

                    Additional monitoring data would provide Louisiana with a
                    better basis for determining the effectiveness of its water
                    management program and help in determining the actual

                               19                   Report No. 2000-P-000185-00022
                              Improvements to Louisiana’s Water Quality Standards, Monitoring
                                    and Reporting Program Would Better Protect State Waters

                              condition of the State’s waters. Chemical-specific testing
                              alone does not provide the necessary information to assess
                              the biological condition of the water. Emphasis only on
                              chemical testing could result in Louisiana not identifying
                              impaired waters.

                              EPA strongly recommends using an integrated assessment
                              process involving biological, habitat, physical/chemical, and
                              toxicity monitoring. Biological indicators are beneficial in
                              revealing whether an ecosystem is functioning properly and
                              is self-sustaining. Specifically, biological
                              data provide a good measure of what has happened in a
                              waterbody, whereas chemical and toxicity data are a better
                              measure of what could happen in a waterbody.




WATER QUALITY                 Louisiana did not update its water quality planning
PLANNING                      documents to reflect significant changes to its monitoring
DOCUMENTS NOT                 strategy, as required by 40 CFR 130.5. Additionally,
UPDATED OR                    the State’s Surface Water Monitoring Program Quality
COMPLETE                      Assurance Project Plan includes sections that do not meet
                              applicable EPA requirements. Without updated and
                              appropriate planning documents, the potential exists that the
                              State may not be focusing its water quality efforts on
                              priority areas.

Continuing Planning Process   Louisiana had not updated its Continuing Planning Process
                              to reflect revisions to its monitoring program, as required by
                              40 CFR 130.5. In 1998, the State’s monitoring program
                              was revised from that of a traditional fixed station approach
                              to the EPA recommended rotating basin approach.
                              Louisiana, however, had not documented the change as part
                              of its continuing planning process and had not submitted it
                              to Region 6 for review and approval.

                              The continuing planning process should include a strategy
                              that describes how the monitoring program design will meet
                              the informational requirements of §305(b), over a specified
                              period of time, with either a comprehensive assessment of
                              all waters or a representative selection of

                                         20                   Report No. 2000-P-000185-00022
                    Improvements to Louisiana’s Water Quality Standards, Monitoring
                          and Reporting Program Would Better Protect State Waters

                    waters. The proposed design should be consistent with the
                    methodology in the most recent §305(b) reporting guidance
                    for comprehensive assessments and EPA’s quality assurance
                    requirements and guidance.

Quality Assurance   Louisiana’s quality assurance project plan was not updated
Project Plan        timely and includes sections that do not meet applicable
                    EPA requirements. Similar to the continuing planning
                    process, Louisiana had not updated its quality assurance
                    plan since 1994 to reflect changes made in 1998 to its
                    monitoring strategy. It was not until September 16, 1999,
                    that Louisiana submitted its revised quality assurance plan
                    to EPA, incorporating the changes.

                    The revised plan as submitted, however, included sections
                    that do not meet applicable EPA requirements. Without an
                    adequate quality assurance plan, the integrity of the State’s
                    monitoring and overall water quality program may be
                    jeopardized.

                    In a memorandum to Louisiana, dated February 8, 2000,
                    Region 6 noted that some sections of the quality assurance
                    project plan were excellent; however, other sections did not
                    meet applicable EPA requirements delineated in EPA Order
                    5360.1, and EPA QA/R5. The Region 6 technical review
                    identified issues that must be resolved for the plan to be
                    technically approved. In general, Region 6 noted that while
                    there was a considerable amount of useful information in the
                    plan, the study design portion of the plan does not provide
                    sufficient information regarding connections between the
                    stated objectives, sample collection activities, and data
                    assessment. Both short-term and long-term corrective
                    actions were proposed by the Region in its review.




                               21                   Report No. 2000-P-000185-00022
                                             Improvements to Louisiana’s Water Quality Standards, Monitoring
                                                   and Reporting Program Would Better Protect State Waters

WATER QUALITY                                Louisiana submitted to EPA the required 1998 Water
REPORTS SUBMITTED                            Quality Inventory Report (305(b)) and the Water Quality
AS REQUIRED                                  Limited Waterbodies - 303(d) List.

                                             §305(b) of the Act requires each state to assess and report
                                             to EPA every 2 years on the condition of its waters. The
                                             §305(b) report is used as a report to Congress to meet the
                                             Act requirements, to help states focus resources on priority
                                             areas, and to provide useful and accessible data to decision
                                             makers. §303(d) of the Act requires each state to prepare a
                                             prioritized list of impaired water bodies that do not fully
                                             support their designated use.

                                             Louisiana consistently applied appropriate methods and
                                             procedures in performing its river and stream water quality
                                             assessments for the 1998 reporting period. Our review,
                                             which included 18 judgementally selected waterbodies,
                                             disclosed no significant discrepancies or inconsistencies with
                                             the assessment process.

                                             Louisiana’s water quality assessments were conducted
                                             primarily from data obtained from the ambient monitoring
                                             network. Additionally, other data resulting from special
                                             studies and investigations, and water quality data from other
                                             agencies was used in the assessment process. To determine
                                             the support or non-support of designated uses, Louisiana
                                             compared monitoring data with specific water quality
                                             criteria protective of those uses. The criteria used was
                                             taken from the State’s water quality standards.

                                             The assessments were appropriately presented in the State’s
                                             1998 §305(b) report. Louisiana’s §303(d) list, which is
                                             generated from the §305(b) report, was approved by EPA
                                             on September 14, 1998.1




 1 The 1998 §303(d) list was subject to a lawsuit styled Sierra Club et al. v. Clifford et al., No. 96-0527 (E.D. La),
which is currently on appeal in the United States Court of Appeals for the Fifth Circuit. The 1998 §303(d) list has
been subsequently modified a number of times in accordance with that lawsuit.


                                                          22                      Report No. 2000-P-000185-00022
                        Improvements to Louisiana’s Water Quality Standards, Monitoring
                              and Reporting Program Would Better Protect State Waters

CONCLUSION              The use of biological monitoring would provide Louisiana
                        with a better basis for determining the effectiveness of its
                        water quality management program. Also, updated and
                        appropriate planning documents would help ensure that
                        Louisiana is focusing its water quality efforts in priority
                        areas.




RECOMMENDATIONS         We recommend the Regional Administrator assist Louisiana
                        in:

                        4-1.         Formulating a long range plan to expand its
                                     monitoring program to include biological
                                     monitoring that will meet EPA requirements.

                        4-2.         Developing and updating required water quality
                                     planning documents, including the Continuing
                                     Planning Process, Quality Assurance Project
                                     Plan, and a State monitoring strategy.




AGENCY AND STATE        Region 6 and the State provided comments to clarify
COMMENTS AND OIG        portions of the chapter. We have incorporated these
EVALUATION              comments and modified the chapter as appropriate.

Biological Monitoring   Region 6 agrees with the recommendations and further
                        provides that Louisiana’s standards program should also
                        include the development and adoption of numeric biological
                        criteria for wadeable streams in regions that lie north of the
                        coastal plains. According to Region 6, Louisiana has
                        completed the process of stream classification and
                        conducted multiple years of reference stream sampling to
                        characterize fish and macroinvertebrate communities in
                        these regions. Louisiana has also developed preliminary
                        biological criteria based on these results. The next step for
                        Louisiana would be the adoption of biological criteria into
                        the State standards.


                                   23                   Report No. 2000-P-000185-00022
                         Improvements to Louisiana’s Water Quality Standards, Monitoring
                               and Reporting Program Would Better Protect State Waters

                         Louisiana generally did not agree with the recommendation.
                         Although Louisiana acknowledges that biological
                         monitoring would be a benefit to water quality assessment,
                         they contend the State’s water quality is protected by the
                         State’s standards because the standards: (1) were designed
                         to be protective of all designated uses, (2) are continuously
                         revised as needed to improve upon that protection, (3) have
                         been publicly noticed and approved for publication as
                         Louisiana regulation, and (4) have been approved by EPA.

                         Louisiana expressed concern with the lack of clear guidance
                         or regulation concerning the proper combined
                         use of physical, chemical and biological monitoring.
                         Louisiana also expressed a concern related to problems
                         throughout the State with dissolved oxygen levels. Many if
                         not most Louisiana water bodies support fish and vertebrate
                         populations that are both diverse and abundant, despite the
                         fact that dissolved oxygen does not meet the EPA approved
                         standard. Louisiana questions the use of biological
                         monitoring in this instance.

                         We acknowledge Louisiana’s comments and recognize
                         the difficulties and challenges the State faces in
                         implementing a biological monitoring program. We
                         continue to maintain, however, that biological monitoring
                         would enhance the overall usefulness and accuracy of the
                         State’s monitoring and assessment program.

Water Quality Planning   Region 6 requested clarification on several points related to
Documents                the finding and recommendation for this issue. Louisiana’s
                         comments focused on the reference to EPA’s §305(b)
                         reporting and quality assurance guidance in preparing a
                         monitoring strategy. Louisiana emphasized that EPA
                         cannot impose its will on the states based on guidance and
                         states are not required to follow EPA guidance.

                         Louisiana’s comments are acknowledged; however, the
                         regulations for State and Local Assistance (40 CFR 35.141)
                         include a provision for approval that proposed outputs,
                         under continuing program grants, be consistent with EPA
                         guidance. Furthermore, EPA guidance, as it applies to

                                    24                   Report No. 2000-P-000185-00022
                             Improvements to Louisiana’s Water Quality Standards, Monitoring
                                   and Reporting Program Would Better Protect State Waters

                             water quality, is developed to assist states with the
                             implementation of provisions described in the Act and
                             the water quality standards regulations (40 CFR Part 131).
                             When a state decides to use an approach different from the
                             one which EPA recommends, its reasoning should be based
                             on EPA guidance methodology, and/or other sound
                             scientific processes.

Water Quality Assessment     Based on comments from both Region 6 and Louisiana, we
and Reporting Requirements   have modified the report to include issues regarding the
                             305(b) Report and the 303(d) list. Because the report
                             contained no recommendation and required no actions on
                             the part of Region 6 or Louisiana, we did not consider it
                             necessary to solicit additional comments.




                                        25                   Report No. 2000-P-000185-00022
                                     Improvements to Louisiana’s Water Quality Standards, Monitoring
                                           and Reporting Program Would Better Protect State Waters

                                                                                      EXHIBIT 1
                            SCOPE AND METHODOLOGY

We reviewed Louisiana’s internal controls over water quality standards setting, monitoring, and
reporting. We analyzed internal controls to assure compliance with federal statutory and
regulatory criteria and with Louisiana policies and procedures. Our audit disclosed areas needing
improvement and areas of commendation for both Louisiana and Region 6, which are discussed in
Chapters 2 through 4.

To determine Louisiana’s processes for establishing water quality standards, we interviewed
Louisiana’s Department of Environmental Quality staff and documented their processes for
developing and adopting water quality standards. We reviewed Louisiana’s water quality
standards activities from 1994 through the November 1998 triennial review as adopted in
Louisiana environmental law Title 33, Environmental Quality, Part IX Water Quality
Regulations, Chapter 11, Surface Water Quality Standards. We reviewed policy and guidance
papers to determine if established water quality standards were in compliance with the Clean
Water Act and applicable federal regulations.

In reviewing the program, we interviewed Louisiana Department of Environmental Quality
staff and documented their process for monitoring and assessing water quality data. We also
documented processes for preparing and reporting on the water quality assessment report and
the impaired waterbody list. We reviewed Louisiana’s 1998 303(d) list and the 305(b) report
and assessed whether the reports for reporting water quality were consistent with federal
regulations and EPA guidance.

We judgementally selected 18 waterbodies to test and evaluate the processes for setting use
classifications, establishing water criteria, monitoring and assessing waterbodies, recording
monitoring data in STORET, and reporting on water quality. The sample, which included a mix of
both impaired and supporting waters, included a waterbody from each of the twelve basins.
We reviewed NPDES permits for ten major facilities in Louisiana. We reviewed the permits to
determine if they included permitted discharges of pollutants for which Louisiana did not have
water quality standards. Other than for the purpose stated, we did not perform nor did we intend
to perform a review of Louisiana’s permitting process or of Louisiana’s permit backlog.

To determine if Region 6 implemented effective procedures to approve water quality standards
and evaluate Louisiana’s water quality standards setting, monitoring, and reporting program, we
interviewed Region 6 officials to determine how they ensured compliance with the Act and
applicable federal regulations. We identified Region 6's processes for reviewing the State’s water
quality standards, water quality inventory report, and the impaired waterbodies list.


                                                26                   Report No. 2000-P-000185-00022
                                  Improvements to Louisiana’s Water Quality Standards, Monitoring
                                        and Reporting Program Would Better Protect State Waters

                                                                                   EXHIBIT 2
                PREVIOUS OIG WATER QUALITY REPORTS


1. Missouri’s Water Quality Standards and Monitoring
   E1HWF7-07-0023-8100080, March 31, 1998

2. Colorado Water Quality Standards, Monitoring and Reporting Program
   E1HWF8-07-0004-9100093, March 10, 1999

3. Oregon’s Water Quality Program
   E1HWF8-10-0024-9100119, March 31, 1999

4. Region III Water Quality Standards, Monitoring, and Reporting
   E1HWF7-03-0160, March 31, 1999

5. Ohio’s Water Quality Program
   99P00210, June 30, 1999

6. New Jersey’s Water Quality Monitoring Program
   1998-1-00225, July 21, 1999

7. Arkansas Water Quality Standards, Monitoring, and Reporting Program
   1999-R6-0001321-100245, August 19, 1999

8. Mississippi’s Water Quality Standards, Monitoring and Reporting
   1999-P00219, September 29, 1999




                                             27                   Report No. 2000-P-000185-00022
           Improvements to Louisiana’s Water Quality Standards, Monitoring
                 and Reporting Program Would Better Protect State Waters

                                                            EXHIBIT 3
POLLUTANTS REQUIRING THE USE OF MORE
      SENSITIVE TEST METHODS




   No.    Pollutant
   1      Acrylonitrile


   2      Benzo(a)anthracene


   3      Benzo(b)fluoranthere


   4      Benzo(k)fluoranthene


   5      BIS-2 Ethylhexyl Phthalate


   6      Chrysene


   7      2,4 Dinitrotoluene


   8      Hexachloroethane


   9      N-Nitrosodimethyla-mine




                          28               Report No. 2000-P-000185-00022
                                     Improvements to Louisiana’s Water Quality Standards, Monitoring
                                           and Reporting Program Would Better Protect State Waters

                                                                                     APPENDIX I
                                   AGENCY RESPONSE



                                       September 18, 2000

MEMORANDUM

SUBJECT: Response to Draft Report of Audit No. 1999-0000185
         Improvements to Louisiana’s Water Quality Program

FROM:        Lynda F. Carroll
             Assistant Regional Administrator
             for Management (6MD)

TO:          Randy P. Holthaus
             Audit Manager
             Dallas Office of Inspector General

   Attached is our response to the draft report on Louisiana’s’s water quality standards,
monitoring, and reporting program. After reviewing the report, consulting with your staff and
addressing our concerns, it is our understanding that Chapter 4 of your draft will be dropped.
Therefore, no comments are provided on this portion of the draft audit report. General comments
and comment on the remaining chapters are attached.

   We will look forward to receiving your revised draft report at which time we will indicate our
concurrence or non-concurrence with each finding.

    Thank you for the opportunity to provided comments. If you have any questions, regarding
these comments, please feel free to give me a call or have your staff contact Diane Taheri,
Regional Audit Resolution Coordinator at x7460.

Attachment

cc: Louisiana Department of Environmental Quality




                                                  29                 Report No. 2000-P-000185-00022
                                          Improvements to Louisiana’s Water Quality Standards, Monitoring
                                                and Reporting Program Would Better Protect State Waters

                                                                                          APPENDIX I
                                                                                            Page 2 of 4

                   WATER QUALITY PROTECTION DIVISION
         Comments on OIG Draft Report of Louisiana’s Water Quality Standards

GENERAL COMMENTS

   There are some concerns that the title may be inappropriate considering that the water program is
comprised of several other programs that are not addressed in this report. We recommend replacing
water quality program with water quality standards, monitoring, and reporting program.

CHAPTER 1

Background, Criteria Requirements, page 3

   The establishment and revision of water quality standards is discussed in the second paragraph in
addition to suggestions for assisting with identifying the need for numeric criteria. This discussion
would be more accurate if the section beginning with “In identifying the need for numeric criteria...”
were replaced with all available options for establishing criteria.

    Section 131.11(b) of the water quality standards regulations provides states the option to establish
criteria by (1) adopting criteria published by EPA under §304(a) of the Act; (2) modifying §304(a)
guidance to reflect site-specific conditions; (3) use other scientifically defensible methods; or (4)
establish narrative criteria or criteria based on biomonitoring methods where appropriate numerical
criteria cannot be established.

CHAPTER 2

Sensitive Test Methods, page 8

     EPA Region 6 understands the expressed concern of the OIG Report as it relates to testing
methodology for effluent discharge monitoring. While Region 6 agrees that the blanket use of the
most sensitive test methods could be more protective of state and EPA water quality standards, such
testing would result in very substantial increases in monitoring costs for municipal and industrial
facilities. We agree that the decision to develop policy or regulations requiring the use of the most
sensitive test methods would need to be addressed on a national basis. Region 6 agrees to consult
with the EPA Office of Water on requiring such methods. We will also continue to encourage the
State to use more sensitive analytical test methods for specific chemicals in cases where the water
body is listed as impaired or threatened for such chemicals, or where there is specific information to
support such analytical methods.

                                                   30                     Report No. 2000-P-000185-00022
                                          Improvements to Louisiana’s Water Quality Standards, Monitoring
                                                and Reporting Program Would Better Protect State Waters

                                                                                          APPENDIX I
                                                                                            Page 3 of 4
E. coli and Enterococci Criteria, page 10

    In this section, the upcoming promulgation of water quality criteria for bacteria should be
addressed properly. Reference is made to the federal register notice that published EPA's
recommended bacteria criteria. We suggest adding the title of the criteria document, Ambient Water
Quality Criteria for Bacteria - 1986, in addition to the following statements. The Office of Research
and Development and the Office of Water issued the Action Plan for Beaches and Recreational
Waters (EPA/600/R-98/079, March 1999) advising the states that EPA would promulgate the Ambient
Water Quality Criteria for Bacteria - 1986 by 2003, unless actions were taken by the states to adopt
the EPA recommended criteria, or scientifically defensible alternatives. The transition to E. coli and/or
enterococci indicators are also a priority for the triennial reviews of water quality standards that will
occur in FY 2000-2002.

    The OIG recommends that the Regional Administrator “encourage Louisiana... to adopt
E. coli and/or enterococci criteria” prior to the anticipated promulgation in 2003. EPA Region 6 has
worked diligently with the State on this very matter. Most recently a meeting was held on
August 30, 2000, with representatives from the Louisiana Department of Environmental Quality, the
Louisiana Department of Health and Hospitals, the U.S. Geological Survey (Baton Rouge office), and
EPA Region 6. Current studies, monitoring, data collection, and test methods were discussed, in
addition to EPA's recent DRAFT Implementation Guidance for Ambient Water Quality Criteria for
Bacteria - 1986 (EPA-823-D-00-001).

CHAPTER 3

Biological Monitoring, page 13

    EPA disagrees with the statement that “biological monitoring is costly and more resource
intensive...” than water chemistry monitoring (page 14). Cost comparisons have shown that biological
monitoring is often less costly than either water chemistry monitoring or toxicity testing (Karr and Chu
1999, Yoder and Rankin 1995). It is inappropriate to compare the cost of a single water chemistry
sample to the cost of a single biological sample. Water chemistry monitoring requires multiple
repeated sampling events over time to adequately characterize water quality (Sanders et al. 1983). On
the contrary, biological monitoring integrates conditions over time and may be conducted with
effective results, under stable low flow conditions, once or twice per year (Mount 1994).

    Recommendations for the standards program should include the completion of development and
adoption of numeric biological criteria for wadable streams in regions that lie north of the coastal
plains. LDEQ has completed the process of stream classification and conducted multiple years of


                                                   31                     Report No. 2000-P-000185-00022
                                          Improvements to Louisiana’s Water Quality Standards, Monitoring
                                                and Reporting Program Would Better Protect State Waters

                                                                                          APPENDIX I
                                                                                            Page 4 of 4

reference stream sampling to characterize fish and macroinvertebrate communities in these regions.
The LDEQ also developed preliminary biological criteria, based on these results. The next step is the
adoption of biological criteria into standards.

CHAPTER 5

Timely Submittal of Water Quality Planning Documents, page 19

    This section discusses water quality planning documents in general with one reference to Chapter
3. Since there are a number of water quality planning documents that relate to the activities discussed
in Chapter 5, we would recommend that the report specify which planning documents are referenced
here to avoid confusion.

    It is not clear in this chapter as to which grant requirements the OIG believes are not being met
that may make it necessary to withhold grant funds. Additionally, since most reporting requirements
are negotiated in work plans, we would prefer to have the recommendation ask for Section 106 grant
commitments rather than conditions. If the OIG recommends that EPA withhold grant funds, a
rationale to support this recommendation should be discussed within the report.

REFERENCES

Karr, J.R. and E.W. Chu. 1999. Restoring Life in Running Waters: Better Biological Monitoring.
        Island Press. Washington, D.C.

Mount, D. 1994. A Comparison of Strengths and Limitations of Chemical Specific Criteria, Whole
      Effluent Toxicity Testing, and Biosurveys. Prepared for Science Applications International
      Corporation. Submitted to Environmental Protection Agency Office of Wastewater
      Enforcement and Compliance. Washington, D.C.

Sanders, T.G., R.C. Ward, J.C. Loftis, T.D. Steele, D.D. Adrian, and V. Yevjevich. 1986. Design of
       Networks for Monitoring Water Quality. Water Resources Publications. Highlands Ranch,
       CO.

Yoder, C.O. and E.T. Rankin. 1995. Biological Criteria Program Development and

       Implementation in Ohio in Davis, W.S. and T.P. Simon. Biological Assessment and Criteria:
       Tools for Water Resource Planning and Decision-Making. Lewis Publishers. Boca Raton, FL.


                                                   32                     Report No. 2000-P-000185-00022
                 Improvements to Louisiana’s Water Quality Standards, Monitoring
                       and Reporting Program Would Better Protect State Waters

                                                               APPENDIX II
                 ABBREVIATIONS



Act               Clean Water Act

CFR               Code of Federal Regulations

EPA               Environmental Protection Agency

NPDES             National Pollutant Discharge Elimination System

OIG               Office of Inspector General

303(d) List       Impaired Water Body List

305(b) Report     Water Quality Assessment Report

the Department    Louisiana Department of Environmental Quality




                            33                   Report No. 2000-P-000185-00022
                                    Improvements to Louisiana’s Water Quality Standards, Monitoring
                                          and Reporting Program Would Better Protect State Waters



                                                                                  APPENDIX III
                                     DISTRIBUTION


Office of Inspector General
       Inspector General (2410)
       Deputy Assistant Inspector General for Internal Audits (2421)
       Headquarters Audit Liaison (2421)
       Divisional Inspectors General for Audit

EPA Headquarters Office
     Assistant Administrator for Water (4101)
     Agency Followup Official (2710)
     Agency Followup Coordinator (3304)
     Associate Administrator for Regional Operations and State/Local Relations (1501)
     Associate Administrator for Congressional and Intergovernmental Relations (1301)
     Associate Administrator for Communications, Education, and Public Affairs (1701)

EPA Region 6
     Director, Water Quality Protection Division (6WQ)
     Director, Office of External Affairs (6XA)
     Audit Followup Coordinator (6MD-R)
     Regional Library

Regional Offices
      Regional Administrators

Louisiana Department of Environmental Quality
       Secretary
       Chief, Planning and Assessment Section




                                               34                   Report No. 2000-P-000185-00022
